<html>
<title> - THE PRICE OF PUBLIC DIPLOMACY WITH CHINA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                THE PRICE OF PUBLIC DIPLOMACY WITH CHINA

=======================================================================


                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 28, 2012

                               __________

                           Serial No. 112-133

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
73-537                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                                 ______


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa<greek-l>
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey--
EDWARD R. ROYCE, California              deceased 3/6/12 deg.
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
RON PAUL, Texas                      ELIOT L. ENGEL, New York
MIKE PENCE, Indiana                  GREGORY W. MEEKS, New York
JOE WILSON, South Carolina           RUSS CARNAHAN, Missouri
CONNIE MACK, Florida                 ALBIO SIRES, New Jersey
JEFF FORTENBERRY, Nebraska           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       DENNIS CARDOZA, California
GUS M. BILIRAKIS, Florida            BEN CHANDLER, Kentucky
JEAN SCHMIDT, Ohio                   BRIAN HIGGINS, New York
BILL JOHNSON, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
DAVID RIVERA, Florida                CHRISTOPHER S. MURPHY, Connecticut
MIKE KELLY, Pennsylvania             FREDERICA WILSON, Florida
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             WILLIAM KEATING, Massachusetts
JEFF DUNCAN, South Carolina          DAVID CICILLINE, Rhode Island
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

              Subcommittee on Oversight and Investigations

                 DANA ROHRABACHER, California, Chairman
MIKE KELLY, Pennsylvania             RUSS CARNAHAN, Missouri
RON PAUL, Texas                      DAVID CICILLINE, Rhode Island
TED POE, Texas                       KAREN BASS, California
DAVID RIVERA, Florida


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Steven Mosher, president, Population Research Institute......     4
Mr. Kai Chen, Chinese freedom activist...........................    13
Mr. Greg Autry, co-author, ``Death by China''....................    19
Mr. Robert Daly, director, Maryland China Initiative, The 
  University of Maryland.........................................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Steven Mosher: Prepared statement............................     6
Mr. Kai Chen: Prepared statement.................................    15
Mr. Greg Autry: Prepared statement...............................    22
Mr. Robert Daly: Prepared statement..............................    41

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61


                THE PRICE OF PUBLIC DIPLOMACY WITH CHINA

                              ----------                              


                       WEDNESDAY, MARCH 28, 2012

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. This hearing of the Oversight and 
Investigations Subcommittee of the House Foreign Affairs 
Committee is called to order.
    I want to welcome all of you and Mr. Carnahan.
    Of course, today our subject for this hearing is China's 
public diplomacy policies. The two pillars of America's status 
quo as an open society are freedom of the press and academic 
freedom. Communist China, which does not believe in or allow 
the practice of either type of this freedom, is exploiting the 
opportunities offered by America, as we are consistent with 
those values, to penetrate both private media and public 
education to spread its own state propaganda.
    When Americans debate and discuss issues of the day, the 
assumption is that while many views may differ, citizens are 
trying to find the best outcome or policy that will benefit 
their country. No such assumption applies to the agents of 
foreign powers who are advancing what serves the interests of 
their own dictatorship, which is in competition with our 
country.
    Beijing is pouring billions of dollars into the country's 
state-run media machine, which is churning out new TV networks, 
radio stations, and newspapers aimed at foreign audiences. 
China Daily is delivered on a weekly basis to nearly every 
office on Capitol Hill and claims two-thirds of its readers are 
opinion leaders in government or business. Nearly every 
American home with a satellite dish or a cable TV has multiple 
channels presented by the Chinese Communist Government.
    They present a mixture of news and entertainment programs 
just like a regular network, but there is no warning label 
informing the audiences that what views are expressed or 
embedded in the programs are those of a foreign power, let 
alone a rival Communist dictatorship that considers us to be 
the enemy.
    Less obvious to the general public, but a major undertaking 
by Beijing is the creation of over 70 Confucius Institutes and 
classrooms at American universities and high schools. Confucius 
Institutes provide money, textbooks, and teachers from China, 
funded by the Communist regime in Beijing. The U.S. schools 
provide facilities, matching funds, and legitimacy to the 
Chinese propaganda effort. Under the guise of education, the 
Confucius Institutes convey Beijing's version of cultural 
values and history in forms that can be described as propaganda 
and have been so described by Communist officials from China 
themselves.
    History is part of the cultural curriculum that includes 
the assertion that Tibet and Taiwan are now, and always have 
been, Chinese territories. Another subtle message is that 
socialism with Chinese characteristics creates a harmonious 
society which everyone should envy.
    The headquarters of the Confucius Institutes is the Hanban 
located in Beijing. The Hanban recently won a red song contest 
held by the Ministry of Education on the theme, ``Following the 
Communist Party Forever.'' Is this ideology compatible with 
American values of academic freedom? Are American universities 
selling not just classroom space, but their souls in order to 
get grants and Chinese money into their institutions?
    Here to answer these and other questions is a distinguished 
panel. We are grateful for you being with us today.
    Mr. Steven Mosher, president, Population Research 
Institute, he is the author of a number of books, including the 
path-breaking, ``Broken Earth,'' which exposed China's 
notorious one-child policy, and ``Hegemon: China's Plan to 
Dominate Asia and the World,'' in 2002. His most recent book, 
``Climategate: The Crutape Letters,'' which came out in 2010, 
is also one of his books. He has also written for the Wall 
Street Journal, the New Republic, the Washington Post, National 
Review, Catholic World Report, Human Life Review, First Things, 
and numerous other publications.
    Then we have Mr. Kai Chen, a Chinese freedom activist. His 
book in 2007, and that is, ``One in a Billion: Journey Toward 
Freedom,'' tells of the horrors of living under Communist rule 
and of his escape from China during the Cultural Revolution. He 
is now an American citizen and a graduate of UCLA in political 
science. He played for China's national basketball team, and 
his daughters played for their American college teams. That is 
terrific.
    And Mr. Greg Autry, co-author of Peter Navarro's, ``Death 
by China: Confronting the Dragon--a Global Call to Action,'' 
which was published last year by Prentice Hall. He is working 
on a Ph.D. at the University of California at Irvine, and he is 
also a partner in Network Corporation and Wired-Images.com. He 
is a southern California professional systems consultant. That 
group is consulting. The group was founded in 1997.
    Finally, we have Mr. Robert Daly, director of Maryland 
China Initiative, from the University of Maryland. Prior to 
taking up his current post in 2007, he was for 6 years American 
director of the Johns Hopkins University-Nanjing University 
Center for Chinese and American Studies in Nanjing, China. He 
began work in the United States/China relations with the United 
States Information Agency, in which he served from 1986 to 
1991. He then taught Chinese at Cornell in 1991 to 1992. For 
the next 9 years, he worked on television projects in China as 
a host actor and writer, and also served as a commentator in 
U.S./China relations.
    I want to thank you all.
    Mr. Carnahan, do you have an opening statement?
    Mr. Carnahan. Yes, Mr. Chairman. Again, thank you for the 
work that you do with this committee and subcommittee. I 
appreciate the work that we do together. We don't always come 
at it from the same direction, but we have been able to find 
some great common ground to work together on this committee. I 
appreciate your work and your friendship.
    I want to thank you for holding this hearing. I am a very 
strong supporter of public diplomacy as a key piece of our 
smart power strategies on behalf of the United States. I am 
encouraged by your commitment to exploring multiple aspects of 
these policies, including how other countries conduct public 
diplomacy in the U.S. and abroad.
    Public diplomacy programs are a critical and indispensable 
component of U.S. foreign policy. Many of these programs are 
cost-effective ways to conduct public diplomacy. Establishing 
American cultural centers around the world has been, and should 
be, a continued part of that policy.
    No doubt, the barriers presented by the Chinese Government 
to establish these has presented a challenge. I would encourage 
the administration to continue to advocate that the Chinese 
Government provide us with the same access that they are 
allowed with the establishment of their Confucius Centers.
    However, I do not believe that limiting U.S. access will 
lead to the Chinese Government allowing the establishment of 
U.S.-Government-funded cultural centers, nor do I believe it is 
in the best interest of a free and open society like ours to do 
so.
    When you look broadly at public diplomacy in China, there 
are numerous ways that are currently being effective. I would 
point to a few: The establishment over the past few years of 
several American corners at several public and university 
libraries. While these certainly are not U.S.-Government-run, 
as in other parts of the world, they are, nonetheless, an 
avenue to bring American culture and values to China.
    Other universities, like in my home city of St. Louis, 
Webster University offers a wide array of opportunities in 
China from joint degree programs to exchanges. Bringing the 
value of American education to China from schools like Webster 
University will help our public diplomacy efforts.
    And student exchanges continue to be one of the best ways 
to advance our long-term interest. Young people and students 
can be some of our best diplomats. Current estimates show that 
10 times as many Chinese students study in the U.S. compared to 
the number of American students studying in China. So, there is 
much work to be done there. Efforts to increase American 
students studying in China, such as the 100,000 Strong 
Initiative, will help foster a greater understanding of 
American culture, as well as those students bringing back 
better knowledge of China.
    We need to continue engagement with the Chinese Government 
and the Chinese people in all possible ways. I look forward to 
hearing about how we could continue these efforts, and I, 
again, want to thank the witnesses upfront for being here 
today.
    Mr. Rohrabacher. Thank you very much, Mr. Carnahan.
    We will start with Steven Mosher. Might I suggest that, if 
you could keep your initial statement down to 5 minutes, we 
will, then, put the rest of your statement in the record. And 
then, we will proceed with the questions and answers, once all 
of you are done with your testimony.
    Mr. Mosher, you may proceed.

STATEMENT OF MR. STEVEN MOSHER, PRESIDENT, POPULATION RESEARCH 
                           INSTITUTE

    Mr. Mosher. Thank you, Mr. Chairman, and thank you for 
holding this important hearing.
    Mr. Rohrabacher. I am going to ask you to put that 
microphone very close to your mouth. You know, actually, I have 
got what they call surfer's ear. When you go surfing and you go 
into the cold water, it actually hurts your hearing sometimes. 
And so, the more you can speak into that microphone, the better 
they can hear you, but also the better I can hear you. So, that 
would be very helpful.
    Mr. Mosher. Well, I was born and raised in California. So, 
I understand exactly from personal experience what you are 
talking about.
    Mr. Rohrabacher. Go for it.
    Mr. Mosher. My testimony today is entitled, ``Confucius 
Institutes: Trojan Horses with Chinese Characteristics,'' which 
I think gives you an insight into my view of this particular 
initiative on the part of the United Front Work Department of 
the Chinese Communist Party.
    Now Confucius Institutes are described as nonprofit, public 
institutions aligned with the government of the PRC whose 
purpose is to promote Chinese language and culture. But there 
are literally now thousands of academics around the world who 
have voiced concern that these seemingly-benign purposes leave 
out a number of other purposes; namely, sanitizing China's 
image abroad, enhancing its power globally, and creating a new 
generation of China watchers who are well-disposed toward the 
Communist dictatorship.
    Now these are not like Germany's Goethe-Institut. The 
Confucius Institutes are not independent from the government, 
nor do they occupy their own premises. Instead, they are 
embedded within established universities and colleges around 
the world and are directed by an organization which is known as 
the Office of Chinese Language Council International, but this 
answers, in turn, in academic matters to the Ministry of 
Education and in practical matters to the United Front Work 
Department of the Chinese Communist Party. In fact, the 
chairman of the Confucius Institute is none other than Liu 
Yandong, who served as the head of the United Front Work 
Department from 2002 to 2007.
    Now what is the United Front Work Department? The purpose 
of the United Front Work Department of the Chinese Communist 
Party is subversion, co-option, and control. During the 
Communist revolution, it subverted and co-opted a number of 
other political parties, such as the Chinese Socialist Party, 
into serving the interests of the Chinese Community Party. 
After the establishment of the PRC, it continued to control 
these parties, which were allowed to exist on sufferance, 
albeit as hollow shells, creating the illusion of ``democracy 
in China.''
    That it has de facto control over the Confucius Institutes 
suggests more strongly than anything else that one of the chief 
purposes of these institutes are, namely, to subvert, co-opt, 
and ultimately control western academic discourse on matters 
pertaining to China.
    Now I am particularly troubled by this aspect of the 
Confucius Institute initiative because of my own experience. As 
you mentioned during your introduction, I have some personal 
experience in how the Chinese Party-State deals with its 
overseas academic critics because, following my expose of human 
rights abuses in the one-child policy in the early eighties, 
the PRC, acting then through the Chinese Academy of Social 
Sciences, put tremendous pressure on Stanford University, my 
university, to deny me the Ph.D. Beijing went so far as to 
threaten to abrogate its scholarly exchange program with the 
United States unless I was, in its words, ``severely punished'' 
for speaking out. In other words, I know from personal 
experience how ruthless the Party can be when it comes to 
pursuing its own interests and how sycophantic, not to say 
craven, some academic administers can be, again, from personal 
experience.
    Now I am going to go right to the end here and say this: 
Given that the Chinese Party-State does not share our 
democratic institutions, nor our commitment to open markets, 
nor our understanding of human rights, its purposes in setting 
up these Confucius Institutes are diametrically opposed to our 
national principles. Should we really be allowing a cruel, 
tyrannical, and repressive regime to educate our young people?
    And there is a final point. I have long believed that 
reciprocity should govern our relations with China. There can 
be no reciprocity in the matter of Confucius Institutes. 
Imagine the reaction of the United Front Work Department of the 
Chinese Communist Party if a U.S.-Government-funded and 
controlled American institute were proposed to be embedded at, 
say, Beijing University to teach American language and culture. 
How many seconds do you think it would take the Chinese Party-
State to say no? How many seconds do you think it would take 
the Chinese Party-State to say no to our having government-
funded radio shows or television shows in China? Where there is 
no reciprocity, we should revisit the relationship and demand 
that it either be allowed or that we fundamentally change our 
view of how China should be allowed to operate in this country.
    Thank you very much.
    [The prepared statement of Mr. Mosher follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Did you get it? Did you get your Ph.D. 
from Stanford?
    Mr. Mosher. Actually, I didn't. Stanford investigated my 
research from 1981 to 1986. At the end of the day, the then-
president of Stanford University, Donald Kennedy, wrote me a 
67-page letter, which the day before he sent it to me he gave 
to the New York Times. I got it only after the reporters 
started calling.
    The letter said, basically, after rehearsing all of the 
charges made by the Chinese Party-State against me, President 
Kennedy said, ``I do not know whether the charges made against 
you by the People's Republic of China are true or not, but 
there has been a gradual erosion of trust between you and the 
University which makes it impossible for you to get your 
Ph.D.''
    Mr. Rohrabacher. Oh, my.
    Mr. Mosher. So, at the end of the day, he refused to grant 
me the Ph.D. on the ground that he didn't trust me. Well, after 
5 years, I didn't trust him much, either.
    Mr. Rohrabacher. All right. Well, we will ask more 
questions about that later. That just shows you what happens. 
You know, when you are young, your parents always say, ``Don't 
hang around with these lowlifes, or if you are hanging around 
with some criminals, it is less likely that you are going to 
turn them into saints than it is that they are going to hurt 
your value system.'' That sounds like what is happening here.
    But we have with us a heroic athlete who would like to tell 
us also a firsthand experience of living under this Communist 
dictatorship and some insights of what he thinks are motives 
and what is going on, what we are facing now.
    Mr. Chen?

      STATEMENT OF MR. KAI CHEN, CHINESE FREEDOM ACTIVIST

    Mr. Chen. Thank you very much, Chairman Rohrabacher. I 
truly appreciate your tireless effort in facing down evil. So, 
I thank you here personally.
    For me, the distinction that I am a Chinese freedom 
activist is a misnomer. But I am more American than most 
Americans. In many ways, I was born an American already. I was 
only born in the wrong place. So, please don't treat me as a 
Chinese. I am an American citizen. And I am here more 
interested in safeguarding this country, safeguarding American 
freedom and the American security, than changing China. So, I 
want to make that clear about it.
    Secondly, I want to dispel some misconceptions in the 
American public that China is just a normal nation-state. China 
is not a nation-state by any standard. China is a party 
dynasty. Once we have this distinction, we can formulate and 
implement effective China policies. Otherwise, everything you 
formulate around normal nation-state will fail because it does 
not behave as a normal nation-state.
    Thirdly, there is a saying that China now is capitalistic, 
has capitalism in there. But China does not have a shred of 
capitalism because every inch of land in China belongs to the 
government. Not a single inch of land in China belongs to any 
individual. That distinction will dispel China has capitalism 
because there is no private property rights. Government can 
take anything away from you and in any moment.
    So, thirdly, there is a misconception that, since Nixon 
opened the door, only the freedom can influence China and we 
are safe from despotism and tyranny. But, actually, it is a 
two-way street. Nowadays I am disturbed and alarmed to find 
that the U.S. is more or less changed by China than China being 
changed by the U.S. I will give you a few examples later.
    So, communism was down when the Berlin Wall was collapsed, 
but communism was not out. It is enjoying a comeback, and 
through another form, a mutated form, mainly by the Chinese 
form of government. So, I want that to be clear.
    A few things disturb me and alarm me. In America, there is 
a deterioration of political culture in this country, from a 
culture of freedom gradually toward a culture of moral 
confusion.
    When I went to Alhambra City Hall in 2007, I saw a 
portrait, supposedly by an artist, painted George Washington on 
one side and Chairman Mao on the other side, and they were put 
together. I protested it. Eventually, they have taken it down, 
but it becomes a big controversy. But you can see the extent of 
penetration of American political culture in that.
    Also, if I stroll on the street in Los Angeles, there is 
Mao's Diner, Mao's Kitchen in there. Inside is all cultural 
revolutionary posters with Americans dining down there, and the 
poster says, ``Down with American imperialism'' on top. It is 
ironic.
    Another thing is, when I went to the Nixon Library, there 
is a Mao statue sitting in the exhibit called ``The War of 
Leaders,'' and sitting among the likes of Winston Churchill and 
Charles de Gaulle, which I say, if Mao leads the world, he 
leads in murdering people. So, how can you reconcile that kind 
of image?
    I engaged in, before the Beijing Olympics in 2007, an 
Olympic Freedom Run over the four continents. I just want to 
tell people that, when you go to the Beijing Olympics, don't 
forget the Tiananmen Square massacre. But, then, a U.S. 
President went to the opening ceremony and saying nothing.
    And now, when Liu Xiaobo was jailed, and being awarded the 
Nobel Peace Prize, and a U.S. President invites this jailer 
into the White House and gave a state banquet, that was very 
disturbing.
    I don't have time. I just want to conclude my statement 
with these two images. One is this, what I picked up in 1989 on 
Tiananmen Square that says, ``Support the hunger strike. Demand 
equal dialogs.'' What I want to tell you, this is the 
aspiration of the Chinese people.
    But, then, I am going to show you another image. This is 
the reality of China. When the U.S., now facing the Chinese 
economy, and they see this bill of currency everywhere, there 
is an image of Mao's portrait on every bill of Chinese 
currency. But, then, we are talking about only devaluation, 
devaluation or manipulation of the currency in economic terms. 
But I want you to see the moral terms in this.
    Once we accept this currency as normal currency, once we 
accept China as a normal state, then we accept the fact that 
killing people, murdering people, and persecuting people to 
acquire power is acceptable. Once we see that, we cease to be 
the United States of America and with the principles of freedom 
upon which this country is established.
    Thank you.
    [The prepared statement of Mr. Chen follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much for that very 
inspiring testimony. You're right, it is your commitment to 
American ideals that makes you an American. All I can say is, 
after hearing your testimony, that certainly I know that you 
are far more American than so many others that I have to deal 
with quite often. So, thank you for that very inspiring 
testimony.
    And we need to say this at this time: I don't have any 
complaints against the Chinese people. None of the comments 
that we hear today should ever be misreported or misinterpreted 
as attacks on the Chinese people. In fact, our greatest ally in 
the struggle for a better world and increasing freedom and 
peace in this world, our greatest ally in that struggle are the 
people of China because they are the ones that are on the front 
lines of this struggle.
    We need to make sure we repeat that over and over again 
because they will be told that our comments about their 
oppressors and the dictatorship that rules them with an iron 
fist, that that in some way is disparaging against them. That 
is an absolute falsehood, but they will use that to try to cut 
off communication. So, let us reaffirm that right at this 
point.
    And Mr. Greg Autry, who is a terrific filmmaker. He has 
produced a film that I would recommend, written a book and 
produced a film that I would recommend that not only all of you 
see, but you might, if you have various people that you would 
like to inform about the relationship that we have had with 
China and what that has done to us by us compromising, and us 
actually not compromising--there has been no compromise; just 
give away--we have a great documentation as to how this has had 
a negative impact on the cause of peace, but also on the cause 
of prosperity here in the United States.
    Greg, you may proceed.

   STATEMENT OF MR. GREG AUTRY, CO-AUTHOR, ``DEATH BY CHINA''

    Mr. Autry. Thank you very much, Chairman Rohrabacher. I 
greatly appreciate your work on this effort for many years.
    I am the co-author of the book, ``Death by China.'' I am 
testifying on my own behalf, and my views are not the views of 
the University of California, where I have been a lecturer and 
I am completing a Ph.D. in economics and public policy.
    In the two decades since Henry Kissinger convinced America 
to overlook the massacre at Tiananmen Square, we have been 
mired in a one-sided trade war camouflaged under Chinese 
propaganda with an aid of an American fifth column of media 
pundits, CEOs, and academics who cheer on the rise of state 
capitalism.
    They push us to open our markets and our media to a non-
reciprocating China with promises of a flat world, but the only 
thing getting flattened is America's productivity capacity and 
American values. Our President publicly repeats Chinese 
propaganda phrases like ``peaceful rise'' while he 
simultaneously allocates billions of taxpayer dollars to 
counter China's increasingly aggressive military posture. He 
legitimizes China's non-democratic system by inviting the new 
anointed dictator to the White House. Why?
    The answer to these questions is the reality distortion 
field, a phrase that was coined by the associates of the late 
Steve Jobs to describe that man's uncanny ability to induce 
compliance and agreement in those around him, even when they 
knew Mr. Jobs' statements were untrue and even when they were 
fully aware that they were being manipulated and exploited. 
Whenever we say ``People's Republic,'' we enter the Chinese 
global reality distortion field, and phrases like ``peaceful 
rise'' and ``harmonious society'' lose their frightening 
Orwellian flavor.
    Central Chinese Television Chief Hu Zhanfan chastised news 
workers who fancied themselves as journalists rather than 
accepting their proper role as Party propaganda workers. Mr. Hu 
went on to call strengthening education in Marxist journalism a 
matter of urgency.
    This ideological thinking does not stop at China's borders. 
Why should it? America's ever-hopeful policy of engagement 
drives a very soft official stance on issues of Chinese 
domestic and global behavior. Media, academia, and business 
take their cues from a timid administration and a diffident 
State Department. Our Government's public behavior implies that 
Communist China is a normal nation to be treated the same as 
Canada or India. This tacit endorsement allows the Chinese 
State propaganda machine to run wild and free in America and 
use our most powerful institutions to project the Communist 
Party's reality distortion field.
    American schools and universities are particularly filled 
with Chinese apologists who convey the CCP's thought work. NYU 
adjunct Ann Lee writes, ``China is still being perceived as 
undemocratic and anti-liberal by the West, but this problem can 
be easily corrected with more astute public relations 
training.'' She doesn't intend to correct the problem of anti-
liberal or undemocratic, merely the western perception.
    Professor Lee presents China's version of re-educating 
American youth with their Confucius Institutes when she writes, 
``The strategy of bringing students from other parts of the 
world to China is similar to the strategy Caesar used when he 
conquered Gaul. He turned Gauls into Romans who could be 
trusted to run Gaul for the Roman Empire.''
    What would our reaction be to our other dictator friends 
from Saudi Arabia establishing Muhammad Institutes in our 
schools? If this would not be acceptable, then I ask us, why we 
wish to infuse our students with an infectious ideology from a 
communist power that is hostile to American values?
    There are far more Chinese students in the U.S. 
universities than any other nationality, particularly at the 
graduate level and increasingly in the critical science, 
engineering, and business departments. The China Daily 
explicitly advises Chinese students to apply to the UC campuses 
because budget cuts there compel us to admit more non-
residents.
    The presumption that democratic America and totalitarian 
China enjoy some special relationship is all too common. My 
university has a newly-endowed U.S.-China Institute for 
Business and Law. The dean of the law school remarks on the Web 
site, ``We are at a unique moment in the history of our two 
countries in which it is especially important to build bridges 
between them in business and law. And in each country, the 
legal system provides a unique framework within which business 
can flourish.''
    This last sentence establishes an obscene moral equivalency 
and represents an astounding level of naivety. The ubiquitous 
China Daily newspaper is the strongest outward manifestation of 
Communist influence in the U.S. I find it all over campus and 
on every corner here in DC. Americans have no idea this is a 
publication of a hostile foreign government.
    A China Daily editorial recently suggested punishing 
America and ``building a direct link between U.S. bond 
purchases and U.S. domestic politics.'' Outrageously, China 
Daily inserts a monthly print and daily online supplement into 
the Washington Post entitled, ``China Watch.'' Featuring the 
large, bold, black masthead of the Washington Post and hidden 
below the title ``China Watch'' on the other side is a teeny 
disclaimer, ``A paid supplement to the Washington Post.'' Paid 
by who?
    I could go on, but I see that my time is running out. I 
have four things I would suggest to the committee.
    One, that U.S. publications must be required to clearly 
reveal when they place content provided by a foreign government 
or agent of a foreign government.
    Two, hostile foreign governments that censor U.S. media----
    Mr. Rohrabacher. Would you please repeat that first one 
again?
    Mr. Autry. Yes.
    Mr. Rohrabacher. And slowly.
    Mr. Autry. U.S. publications must be required to clearly 
reveal when they place content that is provided by a foreign 
governments or an agent of a foreign government.
    Hostile foreign governments that censor the U.S. media in 
their domestic markets should not be granted First Amendment 
rights in America. CCTV and China Daily should have no more 
access than Fox News or the New York Times do in the Chinese 
market.
    Three, U.S. public schools and universities should be 
prohibited from accepting funding or curriculum from foreign 
governments or agents of foreign governments, particularly 
those hostile to America's fundamental principles.
    Four, direct the FTC to require country-of-origin 
information regulations that are credible and punish attempts 
to conceal foreign products, including permanent visible 
labeling and registering country-of-origin information per EPC 
code, so that online vendors can also be required to display 
this info and mobile apps can display this info.
    I make that point because one of the most important things 
about China's reality distortion field is that America's 
corporations are complicit in supporting it because they know 
the American consumer is afraid of Chinese products. So, one of 
the most unique pieces of China's distortion field is the 
hiding of the made-in-China label. And I would like to discuss 
that further.
    [The prepared statement of Mr. Autry follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Your time is up. But I think what we could 
do is perhaps during the question-and-answer period go through 
some of your specific suggestions, which are basically trying 
to alert people when they are confronted with an official 
propaganda arm of a dictatorship, of a foreign dictatorship.
    Now I know that Mr. Daly probably has some opinions that 
are a little bit different than what we have heard. And so, we 
are going to give you a little bit more time to state your 
case. We are very happy you are with us, Mr. Daly.
    Thank you, Mr. Carnahan, for helping arrange that.
    Go right ahead.

    STATEMENT OF MR. ROBERT DALY, DIRECTOR, MARYLAND CHINA 
             INITIATIVE, THE UNIVERSITY OF MARYLAND

    Mr. Daly. Thank you, Mr. Chairman, for inviting me here 
today.
    And I want to thank you, too, for the 70th anniversary 
birthday you threw for the Voice of America China Branch a few 
months ago. I had the honor of attending that. I am a weekly 
talking head on current events in U.S./China relations in 
Chinese at VOA. The work that you have done on behalf of the 
Voice and the Branch is very much appreciated.
    I also want to thank the ranking member for giving me an 
opportunity to speak to you today on issues that I have worked 
on now for over 25 years, beginning with formal training in 
public diplomacy by the United States Information Agency. That 
was the launch of my career, and it was a very fortuitous 
launch for me.
    As you say, I do have different views from those that have 
been expressed thus far, but not entirely. I take these 
questions very seriously, and most of the cautions that have 
been raised about how we deal with China, its public diplomacy 
initiatives, about reciprocity, these are all well-placed. 
There are, however, some things that I think need to be said to 
balance some of what has been mentioned so far.
    Confucius Institutes and the overall characterization of 
them as being run out of the Chinese Government through the 
Ministry of Education and, yes, Chinese leaders have said very 
explicitly this is part of their propaganda effort, that is all 
true. Confucius Institutes, or sometimes I will call them CIs, 
the individual institutes are run by American directors who are 
hired by the host university. Most American directors that I 
have spoken with and met with manage their Confucius Institutes 
with a very high degree, bordering on total, of autonomy and in 
accordance with the needs and standards of the American host 
institutions.
    Most of the cultural programs of the Confucius Institutes, 
moreover, are apolitical by design. As public diplomacy 
officers on the Chinese side, they are actually quite shrewd. 
Chinese culture is not presented as, they don't have programs 
on the glories of the Communist Party. They don't have, for 
example, programs on reevaluation of China's position in the 
South China Sea on human rights.
    They tend to deal in culture as decoration, culture as 
celebration, culture as friendship ritual. If we are going to 
criticize their programs, one of the things we can throw at 
them is that they are often, actually, can be sort of dull and 
uninteresting in those ways.
    If you are picturing, based on the testimony of my three 
colleagues, a series of programs that are trying to sell people 
on communism, I would caution that that really isn't what the 
Hanban is dealing with. There have been some cases of heavy-
handedness, to be sure, at some of the Confucius Institutes, 
and we could talk about those.
    Again, I think that caution about the Confucius Institutes 
is reasonable. Of course, we should not take every 
pronouncement which the Chinese side makes on Confucius 
Institutes at face value. Of course, our universities should 
remain self-critical regarding their motives for establishing 
Confucius Institutes, and they must, as my colleagues today 
have said, remain alert to the possible implications of having 
Chinese-Government-funded offices on campus.
    But in advocating vigilance, which I am, I am not claiming 
that Confucius Institutes are dangerous. Because no matter how 
well-founded our initial skepticism may be, Confucius 
Institutes in America now also have a record, and I think that 
it is on that record that they need to be judged.
    I would invite any of you to come on up to Paint Branch 
Elementary School in Prince George's County, to go out to Jenks 
School System or any of the 10 others in rural Oklahoma that 
have K-through-12 Chinese language programs, in part, through 
the facilitation of the Confucius Institutes as well as 
Americans, and actually get into the classrooms and see for 
yourselves what is going on.
    I would argue that the record of the Confucius Institutes 
to date, with some heavy-handedness in a few cases that I would 
probably agree with my colleagues here are also egregious, has 
been a pretty good record.
    Confucius Institutes are primarily concerned with providing 
Mandarin training to American professionals and K-through-12 
students. And I want to emphasize, given some of what has been 
said today about embedded messages and long-term goals of the 
Chinese side, American students who study Chinese throughout 
primary and secondary school are likely to take Chinese in 
college. They are likely to live in China and to gain an 
understanding of China's people and its cultures, and to bring 
that knowledge and an ability to communicate with Chinese 
counterparts into their careers. Americans who begin Chinese 
studies in adulthood are likely to develop a nuanced 
understanding of the challenges in U.S./China relations and to 
help us meet those challenges.
    In other words, Chinese language training, which the 
Confucius Institutes help to provide, is profoundly in the 
American interest. Would I rather that we were paying for it in 
our interest? Well, yes, I would, but that is not what is 
happening right now. We have some institutes and some 
initiatives, but the Confucius Institutes are supporting those.
    There is, furthermore, nothing about gaining fluency in 
Mandarin that inclines a student to support the Chinese 
Communist Party or its policies. I had the privilege, as you 
mentioned, of working with about 250 of our top young Mandarin 
speakers when I was the American director of the Johns Hopkins 
University-Nanjing University Center for Chinese and American 
Studies. I have worked with them closely. I have lived with 
them for 6 years. I have stayed in touch with them as they have 
gone on to careers in, among other things, human rights. One of 
them is running for Congress.
    They are Americans who have lived and worked in China. They 
are as aware of China's failings as any of us. And I would 
argue, in fact, that America's Mandarin speakers are among our 
most effective and constructive critics of China. They often 
see more clearly, because they have the deepest experience and 
knowledge of China, what China, with all of its talent, with 
its worth ethic, with its great ancient cultural traditions, 
and its ambition, could be if its people were free.
    Don't we want to have Americans in every profession, in 
every field of endeavor, to have that ability? Don't we want 
them to be able to make some of the arguments that have been 
made today to Chinese in Chinese? Wouldn't that be a good way 
to go about our public diplomacy?
    So, studying China's languages, its history, and its 
culture doesn't dull our insights as Americans; it deepens 
them. I feel very strongly about it.
    This is why Americans who see China only as a congenial 
partner and those who see it only as a threat, and those in 
between, should all be able to agree on the necessity of 
Chinese language training in America.
    Do the CIs raise any kinds of questions? Yes, they do. I 
think there are two kinds of questions, one that you have 
raised, I think correctly, about balance and reciprocity. Our 
Bureau of Public Diplomacy does stand ready to open up more 
cultural centers, more American libraries staffed by Americans 
with American cultural programming in China. They are not 
allowed to do that. Such centers would be welcomed by the 
Chinese people. So, I do want to associate myself with all of 
the remarks on reciprocity.
    The second question which has been raised broadly is 
whether our universities' collaboration with the Chinese 
Government and various agencies of the Chinese Government, not 
only on Confucius Institutes, but on many other programs as 
well, presents a threat to academic freedom. Again, I think 
that it is a legitimate question, but I would want to point out 
that American universities have ample experience in dealing 
with donors of various kinds, including nations, including 
corporations, and including individuals, who want to shape 
higher education through their giving.
    So, Hanban doesn't present challenges that are new in kind. 
It is a familiar set of challenges to American universities, 
which are also honed to most of our leading China scholars who, 
as has been mentioned, are skeptical and they take a role in 
shaping their university's response.
    Just in closing and in trying to summarize this vast 
question of public diplomacy very briefly, I think that we need 
to be a little bit more confident about the institutions of our 
civil society that are founded on freedom and their ability to 
engage with China across the board actively here and there to, 
yes, gradually, slowly, at a pace that doesn't satisfy any of 
us, but still inexorably does change the state of play on the 
ground in China.
    I think we can be a little bit more confident that 
Americans who have a free press and many sources of news will 
see CCTV, Xinhua, and the China Daily for the most part for 
what they are. I think we have a pretty good nose for it.
    I actually think your idea of having a very clear 
designation, ``This is provided by a foreign government,'' that 
seems to me well worth considering.
    But I think we can go into this very confidently. There may 
be one restaurant in LA that has this Maoist theme. There are 
Hard Rock Cafes all over China with pictures of Bob Dylan in 
them and young Chinese there until two o'clock in the morning. 
There are Starbucks and McDonalds and KFCs and American 
universities, corporations, images, popular music.
    We have a public diplomacy deficit with China, but we have 
an enormous soft power surplus that I think we can be very 
proud of and confident in. We don't have to go into a defensive 
crouch over these issues, although I would agree that we should 
be paying attention to these questions of reciprocity.
    Thank you.
    [The prepared statement of Mr. Daly follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much, and we did give you a 
few extra minutes to make sure that we were able to balance off 
the opinions there.
    I will start off the questions with a challenge. Mr. Mosher 
didn't get his Ph.D. We have got the Chinese Government 
channeling money into our educational institutions. And the 
first thing you know, you have got a guy who does a study on 
the one-child China policy and all of its horrendous 
implications, the murderous implications, and he is denied by 
the faculty of one of our major universities an academic credit 
in order to placate these vicious monsters who are actually 
initiating the murder of every unborn child that is the second 
child of a woman in China.
    Now wouldn't you say, if they are going to be able to 
pollute the decisionmaking process of the top faculty at a 
major university, doesn't that make you fearful of the 
incredible influence they could have on everybody else who 
perhaps are not as educated?
    Mr. Daly. Well, I would have to hear Stanford University's 
side of it. I have only heard one characterization of these 
events. I believe they happened quite a while ago, long before 
the advent of Confucius Institutes.
    Mr. Rohrabacher. Yes.
    Mr. Daly. You could correct me if I am wrong. So, I 
wouldn't want to conflate that with the Confucius Institutes. 
They may be related, but they are separate issues.
    I do think that the broad question stands. I would 
encourage you to meet with actually academic leaders--we don't 
have academic leaders on this panel today--to talk to them 
about this question of, does the fact that universities, not 
only now teach about China and conduct research about China, 
but understand themselves as having interests vis-a-vis China 
that are not necessarily academic interests per se, does that 
have implications for the universities? I applaud the question. 
I am not sure this is the right panel to address it to. I think 
it would be a good idea to bring in a number of American 
university faculty.
    But I would also point out that it is not only American 
universities that now have China interests, and in some sense 
it is China policies, which, therefore, yes, could be subject 
to certain kinds of suasion. Local governments, county 
governments, city governments, corporations--China and America 
now are interlinked at all levels. China is very much present 
at the United States, and there are interests even in public 
school systems.
    So, it is not simply the university side----
    Mr. Rohrabacher. Well, our question is not the university 
side.
    Mr. Daly [continuing]. But our NGOs. We all have to address 
this issue.
    Mr. Rohrabacher. What I was asking, and the reason I asked 
that, because, demonstrably, as the universities should be, if 
nothing, more immune to this type of negative influence.
    Let me just note I participated in a hearing, in a 
congressional hearing, at Stanford University. It was a 
hearing, and I brought up the issue of graduate students from 
mainland China receiving training in technology projects that 
are vital to our national security, meaning people don't have 
to steal some file if they put the file in the head of their 
Ph.D.'s, and the Ph.D. goes back to China and develops their 
weapons system that is now capable of obliterating American 
lives.
    The president of Stanford University couldn't understand 
that. ``No, no, we are an educational institution. We are not 
here for national security purposes.''
    Mr. Daly. Right.
    Mr. Rohrabacher. Something is wrong with that. I think that 
the Chinese money has helped grease this misperception. And I 
mean Chinese money, I mean tyranny money, money from tyrants 
and gangsters who control a large portion of humankind has 
created this monstrous misperception of even the heads of our 
major universities that they don't have to worry about that.
    Mr. Daly. Right.
    Mr. Rohrabacher. Mr. Mosher, we have been using you as an 
example there. Maybe you will have a comment all the way down 
the line, but we will start with you, and then we will go to 
Mr. Carnahan.
    Mr. Mosher. Well, the last witness made an eloquent defense 
of learning about Chinese culture and learning the Chinese 
language, with which I heartily agree, having learned about 
Chinese culture and language at the Chinese University of Hong 
Kong many years ago, and being in the position now of 
encouraging others to do the same thing. Because China, despite 
the shortcomings of its current political system, is an 
important international player.
    Our point here is no one is saying that we should avoid 
learning those things, only that a party-run organization 
probably should not be funding setting the curriculum 
parameters and providing teachers for American students to 
learn these things. Because in the process of developing that 
curriculum and providing those teachers, they are certainly 
putting certain things out of bounds.
    I run a nonprofit organization. I am very aware of the 
kinds of pressure that funding organizations, be they 
individuals or foundations or governments, can put on you. I 
guarantee you that the directors of the Confucius Institutes 
are very clear about who is filling their rice bowl and are 
very careful not to raise subjects that would irritate those 
who have the power to break that same rice bowl.
    Mr. Rohrabacher. Mr. Chen?
    Mr. Chen. I have been actively involved in the protest in 
southern California in a school district called Hacienda La 
Puente Unified School District, which the Chinese Consulate and 
Hanban targeted to implement their Confucius classrooms. I 
examined the materials that they provided. We successfully 
protested and denied the funding of that program by the Chinese 
Government.
    But the school authorities accepted the material, which I 
examined and in which I found many, many instances that can be 
termed ``poisonous,'' to say the least. But just to say that 
what you don't say in the classroom is often more important 
than what you taught in the classroom.
    For example, there is a picture of Tiananmen Square, 
Tiananmen Gate, in that material. When you show this material 
to the students, are you going to mention who is the one, the 
image, that is on the Tiananmen Gate? Who is hanging there? 
What did they do? Are you going to mention that in the school 
in your classroom programs? Are you going to mention the 
Tiananmen Square massacre when you see that image? No, you are 
not going to mention that and you avoid that subject. By 
avoiding that subject, you are brainwashing American students, 
thinking this is a normal program, thinking this is a normal 
country.
    The Chinese map, when I reviewed this program's material, 
the first thing they see, the students will see, what China 
looks like. So, they see a Chinese map hanging there. It says, 
``People's Republic of China.'' When you accept that title, you 
are already being poisoned. That is one thing.
    Another thing is the border including Taiwan and the South 
China Sea and everywhere that the Chinese authorities claim, 
and are you going to explain to the students that those are 
legitimate claims?
    Mr. Rohrabacher. Let's make sure that we understand exactly 
what you are referring to. Chinese maps are different than 
perhaps the maps that we might get here in the United States. 
The maps that China would present as part of their educational 
institution without perhaps alerting people would have the 
South China Sea as part of China's sovereign area, as well as 
perhaps those areas in India and elsewhere that are being 
claimed. Also, just even when we take a look at some of the 
other claims, for example, of Tibet and Taiwan, of course, 
wouldn't be mentioned at all, and those things.
    So, you have some very good points. I don't think that is 
in conflict with what Mr. Daly is saying, but let us put it 
this way: It could be.
    Mr. Daly. It could be. My experience in the classrooms--and 
I am sort of bothered by the same thing. When I see these maps, 
I am aware that there is some legitimacy to these criticisms, 
but I think that it is overblown and that brainwashing is going 
way beyond the pale.
    The People's Republic of China is also the name that the 
United Nations, the United States Government, and the House of 
Representatives uses to refer to China. Are they drinking 
poison every time they say that? No, they are using the name 
that they use that people can understand.
    Mr. Rohrabacher. We don't all, but we don't include a big 
picture of Mao Zedong on the front page of a document to them.
    Mr. Daly. Well, I haven't seen it. Again, I think that it 
is a good idea to get beyond characterizations of the Confucius 
Institutes based on our suspicions and based on several 
anecdotes. A survey might be very much in order. I don't think 
that they are not concerns, but what we have heard primarily is 
surveys about what may lie behind them and a few anecdotes.
    When I have been in these classrooms with children, they 
are not looking at the nine-dash line, if it is there on the 
map. They are learning that ``Da Hai'' is ``ocean'' and trying 
to remember it and trying to learn how to write the character.
    And then, later, when they go to high school and university 
and they take political science, they learn about these issues. 
It is not a Manchurian Candidate kind of situation where these 
old maps will be rising up to find them sympathizers. I 
actually don't believe that.
    Mr. Rohrabacher. I guess if there was a regime that still 
had big pictures of Adolph Hitler around, I guess there would 
be a lot of people who would be naturally suspicious that 
perhaps the values being taught by the money that was put out 
by the regime that still had the pictures of Adolph Hitler 
prominently displayed and quotes from Chairman Hitler, that 
there would probably be legitimate concern there that maybe 
there were some other bad messages going in there.
    Mr. Chen, you wanted to make one more point?
    Mr. Chen. One more point.
    Mr. Rohrabacher. Yes, sir.
    Mr. Chen. The very use of the Confucius name, the Confucius 
classroom, is problematic to American values. I think it is 
fundamentally Confucianism is against American values.
    For example, Confucianism is not a philosophy. It is a 
political ideology. It is a behavior code by which people 
behave according to their birth, gender, social positions, 
trade, governmental positions, by birth. That is diametrically 
against American ideals that we are all created equal.
    So, by simply using Confucius as a title creates a value 
conflict between the United States and this program. I have to 
stress that point.
    Mr. Rohrabacher. So, you see that Confucianism itself as--
obviously, the Chinese see it as something. The Chinese 
Government is not doing--let's put it this way: The motive of 
the Chinese Government in trying to put these Confucian centers 
all over the United States, I have to assume that they are not 
just doing it because they are benevolent and love us and like 
us, but maybe they have some other purpose in mind. But maybe I 
am just too suspicious.
    Mr. Autry?
    Mr. Autry. I wanted to concur with my fellow witness that 
learning Mandarin is certainly an admirable goal. I have my own 
son in high school in the Yorba Linda Placentia School District 
learning Mandarin. I struggle with it myself. That is obviously 
not the issue. And getting us to argue about that is, rather, a 
complete red herring.
    Of course, the Confucius Institute material is bland and 
boring, as he points out, because the Chinese Government has 
learned a lot since the Cultural Revolution. They are going to 
be very, very subtle and very, very patient with their 
propaganda.
    And the first goal of the propaganda is to normalize the 
appearance of a brutal totalitarian state with aggressive 
military goals aimed at America's allies and America's people. 
The first step in this is, indeed, getting people in the United 
States Government to utter the lie ``People's Republic.'' And I 
would challenge the witness to tell me that ``People's 
Republic'' is not a lie, along with the rest of the 
constitution of the People's Republic of China which guarantees 
things like freedom of religion, freedom of expression.
    We should never have anything in our public education 
system financed by a foreign government who is fundamentally 
hostile to the values that America represents and is building a 
military aimed at the people of the United States and doing 
what it does to its own people.
    Mr. Rohrabacher. Okay. Okay. You just stated a proposition, 
and my last question will be for Mr. Daly. Then, I am going to 
let Mr. Carnahan have as much time as I have had here.
    What about that proposition? Should we permit a government 
that obviously is even an anti-democratic government, whether 
we call it China or whether we call it Nazis, or whoever they 
are, should we permit them to finance educational forays into 
the American educational system and have them presented as 
something that is an equal philosophy to be considered by our 
children?
    Mr. Daly. I am all for the truth-in-labeling components of 
what has been suggested, but I think that the costs of limiting 
our own freedom and openness to speak, as other countries are 
not open and free, I think that those costs are far too high, 
and that we can let them in in the spirit of reciprocity, and 
we should remain true to our values. We should fight hard for 
reciprocity.
    Mr. Rohrabacher. But you do believe in reciprocity?
    Mr. Daly. There is the question of how we fight for that, 
which we haven't touched on much today.
    Mr. Rohrabacher. Okay.
    Mr. Daly. And we can let them in, confident--I think the 
issues that have been raised, many of them I agree with. I 
think that I am just more confident that our openness, our 
values, our institutions, the vibrancy of our culture, the 
multitude of voices that people will hear, are going to 
overcome the nuance of the fourth graders----
    Mr. Rohrabacher. Okay, but your answer, then, is it is okay 
as long as that government is agreeing to a reciprocity for us 
to put ours in their society? Is that your answer?
    Mr. Daly. And even when there are problems with reciprocity 
as there are, we can have the confidence to not threaten our 
own openness just because other countries are not themselves 
open, yes.
    Mr. Rohrabacher. Okay, but if they don't, if they are not, 
if there is no reciprocity, you would not make that a stumbling 
point? If they are not going to permit our people to have or 
something financed by our Government or by people here to 
present our position there in their schools, you would not say 
that--demanding reciprocity, you wouldn't demand that then?
    Mr. Daly. Well, where we sit today, I would have probably 
fought for it a little bit harder upfront at the get-go. But 
given where they are now, no. Again, I think that we can be 
very confident in our institutions and our ability to discern 
propaganda, and in the meantime be very glad that more 
Americans are learning Chinese. It is in our interest.
    Mr. Rohrabacher. Okay, but the answer to my question is no? 
Is that correct?
    Mr. Daly. I would not close down the Confucius Institutes, 
even if they did not open up American cultural centers, but I 
would fight for the opening.
    Mr. Rohrabacher. Okay. So, why would we ever expect them to 
open cultural centers of the United States then? So, we 
wouldn't. But that is okay. I mean, we are confident that our 
system is open and our people understand these things.
    Mr. Carnahan, you can have as much time as I had. Go right 
ahead.
    Mr. Carnahan. Thank you, Mr. Chairman.
    I have appreciated this exchange really covering a broad 
range of issues and answers here.
    I wanted to get back on the exchange programs that we spoke 
about earlier. Over the last decade, there has been strong 
bipartisan support in Congress that building these person-to-
person relationships has been a critical contribution to our 
national security.
    I wanted to really ask each of the witnesses, what type of 
exchange programs are we seeing in China now? What kind of 
results we are seeing from them? And, of course, the numbers 
are very uneven. They send more students here than any other 
country. Yet, I think the U.S. I see here is listed, I think, 
fifth in terms of U.S. students. China is the fifth destination 
in terms of numbers. Finally, what can we do to encourage more 
Americans to study in China, to help get us back to closer 
equilibrium here?
    Why don't we start with Mr. Chen?
    Mr. Chen. Yes, thank you.
    I think, as far as I know, if you are selected by the 
Chinese Government to teach English in China, there are some 
rules you cannot break. You cannot mention Tiananmen Square. 
You cannot mention Falun Gong. You cannot mention the Great 
Leap Forward. You cannot mention the Great Famine. You cannot 
mention Cultural Revolution.
    Then, what is the purpose of teaching if you set up all 
these tabu areas when you teach English in China? Once you 
touch those areas, you are expelled from their country. You are 
denied a visa next time, the next round.
    This is how they control academia in America. That means, 
if you publish a paper in the U.S. that is critical of the 
Chinese Government, next round they will not issue you a visa. 
They will blacklist you.
    Mr. Carnahan. I understand and appreciate what you are 
describing, but my question had to do with exchange programs in 
terms of what is working and what can we do to help increase 
the number of American students that are studying in China and 
learning Chinese.
    Mr. Chen. Well, for me, fundamentally, the downfall of the 
Communist Party is the final solution. I don't know how to 
answer that question.
    Mr. Carnahan. Okay. We will move on to Mr. Autry.
    Mr. Autry. Okay. Thank you for your question.
    You note that over the last decade that these exchanges 
have been an important part of our ``national security'' and I 
think our economic interaction with China. I would point out 
that, in my opinion, and the opinion of a number of people who 
I think are very educated on this subject, our economic and 
national security standings are much, much weaker than they 
were 10 years ago.
    And a great deal of the reason behind that is due to the 
actions of the Chinese Communist Party in gutting America's 
manufacturing base and our military supply chain, in keeping us 
off-balance in places like Korea and the Taiwan Straits on 
purpose.
    That said, what can we do about getting more American 
students to China? Well, first of all, our students are 
flooded, our schools are flooded with Chinese students. Many of 
them, frankly, are really good students. I teach them. I would 
point out that I have been on the faculty at the Merage School 
of Business at UC-Irvine as a lecturer in business strategy, 
and as a Ph.D. student, I am teaching, assist, and interact 
routinely with faculty who are interested in this question.
    Often, 25 percent or more of the students in a classroom 
can be from mainland China. This isn't the way that it used to 
be. We used to have a diverse international classroom 10 years 
ago. If I was in an MBA class, we would have students from 
Japan and Taiwan, Germany, Argentina. Now it is the cohort of 
Chinese students and a few others. It is actually, I think, not 
to the benefit of the school.
    Secondly, why should American students want to go to China? 
Their universities are not at all respected, frankly, in the 
academic community because they are not open to outside 
thought. They are corrupt. When you go to a Chinese 
university--I spoke about a year ago at Chengdu 
Electromechanical College. I asked somebody what was this 
graffiti I saw, because you don't see too much graffiti in 
China because the police are pretty tough. But there would be 
these phone numbers sprayed all over campus, just a phone 
number.
    I was told this is the phone number for the counterfeiters 
of academic records, and you can call and get fake test 
results. You can get whole fake college degrees if you call 
these phone numbers.
    Well, why don't the police get rid of them? Because the 
counterfeiters work with the police. So, it is not a problem.
    I have spoken to Chinese students in America who admit that 
academic fraud is the norm in Chinese universities. So, no, I 
don't see any reason why we would want to encourage more 
American students to go to a university system that is both 
subpar and politically manipulative.
    Mr. Carnahan. Okay. Mr. Daly?
    Mr. Daly. Well, a number of issues. One, I would agree that 
Chinese universities, there are a number of problems. They are 
in a state of crisis. But most Americans who go there don't 
actually go there to earn academic degrees. They go there to 
have an experience in China and to improve their Chinese.
    And furthermore, they have access to a number of programs, 
including American programs in China that have been there for 
years. Often, those American-run programs or American-
affiliated programs are the most rigorous. They are more 
rigorous than the Chinese universities.
    The IUP program, Inter-University Program, run out of 
Berkeley, the Hopkins-Nanjing Center, Princeton and Beijing, 
Cornell's FALCON Chinese, these are proliferating fairly 
quickly.
    I strongly support the 100,000-strong initiative that you 
have mentioned, which is at the State Department. I think that 
anything that the House could do to support that in the forms 
of scholarship support for more Americans to go, that would be 
helpful.
    I feel that the single strongest need that we have is not 
so much study abroad--I think that can come later--as foreign 
language study, including Chinese study, K through 12 in the 
public schools. My own view, off-topic, is Spanish I think 
would be an obvious No. 1; I think Chinese would be No. 2.
    It is in the individual interest of students to study 
Chinese. It is in their community interest to have these 
programs. And again, it is profoundly in the national interest 
to have a large group of men and women in all of the 
professions who speak Chinese fluently, who know China and how 
to function there, and still represent their profession.
    So, I would actually put public school language programs 
ahead of study abroad. If we can get more students studying 
Chinese young, the study abroad will take care of itself. The 
demand will be there.
    One of the problems we have now is most of our students 
start studying Chinese in the university, and that is a little 
too late to get true professional fluency. After they graduate, 
they are getting their graduate degrees; they are getting 
professional training, and Chinese becomes something that they 
used to do. It is not deep enough in. So, I see the issue as 
being one of Chinese in the public schools starting in the 
first grade.
    Mr. Carnahan. Thank you.
    Next, I wanted to look at the issues of censorship, and we 
have certainly seen the power of the internet and social media 
across the Middle East and North Africa. We have a pretty clear 
understanding of how effective and severe the censorship is 
within China. Given that fact and those challenges, what are 
some of the best ways to really ramp-up our public diplomacy 
efforts there?
    We will start again with Mr. Chen.
    Mr. Chen. Thank you very much.
    I have to mention President Ronald Reagan. He taught us a 
lot of things in dealing with such a regime. Well, first, you 
have to define the nature of the regime. Like Mr. Reagan said, 
an ``evil empire,'' and ``this Wall needs to be torn down,'' 
and ``These people need to be free.''
    Every time Ronald Reagan went to the Soviet Union he 
demanded, first, to meet the dissidents. But today we don't see 
that. Every major U.S. politician, including Presidents, when 
they went to China, they don't want to see, they don't want to 
talk over the regime to the Chinese people. They don't want to 
talk to the dissidents. They ignore Liu Xiaobo, who is still 
languishing in Chinese jail, while inviting those jailers to 
the U.S. through a banquet.
    And this is China must be changed with the outside message 
from the United States, like Ronald Reagan did tirelessly. 
Every time he stepped on the podium during the 1980s he talks 
about the principles of freedom, talks about America, talks 
about human dignity. That culminated through the 1980s into the 
Tiananmen Square protest.
    But if we fail in that way, we either kowtow to the Chinese 
or appease the Chinese, we are only prolonging our agony.
    Mr. Carnahan. Thank you.
    Mr. Autry?
    Mr. Autry. Yes, your question on the internet, I have been 
a victim of the Chinese internet a number of times. One event 
that comes to my mind was, 1 year ago December, I was traveling 
from Shanghai to Shenzhen, and I was going to meet an 
underground Christian minister, a victim of Tiananmen Square 
who had done some jail time afterwards and a human rights 
advocate that was coming in from Guangzhou to meet me at the 
Shenzhen Airport.
    My flight was delayed for 15 minutes for ``ground control 
requests.'' And when I got to the airport, my party wasn't 
there. I called them on their cell phones and texted them, and 
their cell phones were apparently disconnected, not just 
unanswered, but disconnected.
    I waited in the airport for quite some time at the 
McDonald's, our local American cultural institution. I, then, 
e-mailed them and said I was going to go to my hotel and I 
would be up until 10 o'clock, and if they wanted to get 
together, to get back to me.
    So, I went to sleep. I woke up the next morning. I had an 
e-mail, and apparently my friends had been arrested by the 
police and then driven around until about 11 o'clock. They kept 
them away just long enough so that they couldn't meet with me, 
which was interesting to know that my e-mails or perhaps my 
text messages were being intercepted by the Chinese Government.
    I sent an e-mail then and said, ``Let's meet at the 
Shenzhen train station across from my hotel this morning.'' 
Within \1/2\ hour, I got an e-mail back that said, ``The police 
just called me telling me not to meet the American writer at 
the train station.''
    So, this is the level of what is going on in the Chinese 
internet, not to mention the fact I can't post on Facebook 
there without using a VPN and going to an internet cafe and 
bribing somebody to get a fake national ID card.
    What I think we should do is prevent access to the U.S. 
market by Chinese firms, the same way that they cobble our 
firms, like making it impossible for Google to work well in 
China, making it impossible to get to Facebook at all.
    We should also prevent Chinese internet firms from having 
access to U.S. capital markets. The absurdity that Renren, 
China's competitor to Facebook, gets millions of dollars from 
American investors in order to develop in a nurtured and 
protected environment to compete with Facebook that is not 
allowed in China galls me.
    Mr. Carnahan. Thank you.
    Mr. Daly?
    Mr. Daly. Yes, the original question was about censorship, 
including of the internet. I think here that we have to keep 
calling it as we see it. It is not a subtle problem. We do need 
to keep raising reciprocity, as this committee does, and we 
have to keep on pointing out that the Chinese press is not free 
and advocating for it, for example, to let the Broadcasting 
Board of Governors broadcast to China and its Web sites be 
unjammed and unblocked. I think that that is something that 
Congress has led in quite effectively.
    I think we could perhaps also ask some of our commercial 
networks why, when they have Spanish language channels and 
Arabic and other languages, why do they not even venture for a 
Chinese language station. It would be an interesting thing to 
push for and to try.
    I would agree with Kai Chen that a lot of American leaders 
of various kinds who go to China have perhaps become too 
accustomed to the Chinese way of doing things, and that they do 
not raise issues of censorship, reciprocity, press freedom, 
human rights, as often as they used to. I think that that has 
been a discernible trend over the past 10 years. I would agree 
with that.
    At the same time, we have to ask, if you wish to make a 
human rights representation--and I hope we continue to do so--
how is that made most effectively so that you have the highest 
chance of actually freeing dissidents or changing policies and 
plans in China? We have to make our representations not only so 
that our domestic audiences can hear them and we can broadcast 
what we want to broadcast. The question is, how can we be most 
effective?
    How can we make representations that we know are offensive 
to the Chinese, which we don't mind being offensive to the 
Chinese in many cases, while we also do have to work with them 
on a number of problems that are in the mutual interest? Part 
of the answer to that, as America, and I think part of our 
strength we can be confident about, is that we speak to China 
with a multiplicity of voices.
    So that some elements of the government tend to be a little 
bit more hard-line and speak about human rights. Some others 
have to be more cooperative and work day-in and day-out with 
Chinese counterparts on issues of public health, pollution, in 
some cases international crime, trade, a whole number of 
issues. Those people simply can't be in the business of 
offending China, even if their principles are sound, if they 
are, in fact, going to work with China in the way that we need 
to.
    And so, we need to have Americans who take different 
approaches to China, who speak to China with different voices, 
and, yes, who get into Chinese institutions, agencies, and even 
work closely with the Chinese Government to solve international 
problems and to model American best practices. We need people 
who pound the table about human rights and gradualists who work 
slowly through civil society organs and who work with public 
diplomacy. And the people who take the gradualist approach of 
working with China, they I think in the long-term would have 
the same goals as everybody here, but they deserve to pursue 
their work without being called sellouts or apologists or 
worse.
    Mr. Carnahan. Okay. Thank you very much.
    I am going to yield back my time to the chairman.
    Mr. Rohrabacher. All right. The Chair intends to have a 
very short closing statement on my part and, then, Mr. 
Carnahan. Or maybe I will let you go first. And then, what I 
will do is have a very short closing statement.
    But I also would like to give our witnesses each 1 minute 
to summarize their thoughts. So, you may proceed, Mr. Chen, and 
we will just give everybody 1 minute. And then, we will have 
very short statements to close up the hearing.
    Mr. Chen. Thank you very much.
    I just notice that we are focusing on what to do to China, 
but ignoring what China did to us. When I was with the school 
district, the protest, I noticed the method of infiltration is 
through the corruption of U.S. officials, through our human 
weaknesses. They invite your officials to go to China and give 
you red-carpet banquets, tour, women, everything. Then you come 
back and are pushing the program for them. So, we should be 
concerned more about what they do to us now, instead of what we 
can do to them.
    Thank you.
    Mr. Rohrabacher. Thank you, Mr. Chen.
    Mr. Autry?
    Mr. Autry. Mr. Daly I think made the comment that Congress 
has led quite effectively on this. You know, gee, I wish I 
could believe that.
    But we have been treading water here for 22 years with 
China on issues of censorship, human rights, the rest of the 
thing, trying to be nice and take the gradualist approach. And 
all we are doing is getting run over. It is time to do 
something.
    Mr. Rohrabacher. Thank you.
    Mr. Daly?
    Mr. Daly. I would say that we have already done a great 
deal. We have done most of it as a catalyst through our soft 
power by engaging with China and letting a range of American 
institutions be involved with China. I think that has already 
had a transformative, albeit an insufficient, effect on China.
    I went there first in 1987. Today, while many of the 
problems with freedom and censorship persist, it is, in fact, a 
far better, more humane country in which most Chinese citizens 
in their daily lives enjoy a far greater range of freedoms, of 
course, as long as they don't have great political aspirations 
or advocate that the Chinese Communist Party loses its monopoly 
on power. They lead richer lives. They are physically 
healthier. They have access to a great deal of information, 
despite censorship, and a lot of that is because of work that 
we have done in the United States. I think we can be very proud 
of it.
    Mr. Rohrabacher. Feel free to take an extra 30 seconds. I 
mean, you have actually been on the short end of some of the 
arguments. Do you have anything else you would like to say?
    Mr. Daly. No. I feel I have already had the better of all 
the arguments. Thank you, Mr. Chairman. [Laughter.]
    Mr. Rohrabacher. All right. Good. Good come back. 
Excellent.
    Go right ahead.
    Mr. Carnahan. Yes, I was going to make that point, too, Mr. 
Daly.
    But I did really want to thank all of the witnesses here 
today and thank the chairman.
    To Mr. Daly's point about the U.S. Government speaking with 
different voices, we have certainly heard some different voices 
here today. But I think that is a really healthy thing. This I 
think is a really healthy conversation for our country. I think 
it is informative and I think will help shape how we deal with 
some of these complex issues going forward.
    China, no question, is complicated. I think that is one 
thing we can all agree on. But we need to really look at what 
works, what hasn't worked, and how we can really move forward 
in a smart way.
    And again, Mr. Chairman, I appreciate you being an 
instigator on this conversation.
    Mr. Rohrabacher. Always the instigator. [Laughter.]
    So, for my own closing statements, actually, this quote 
came to mind with Mr. Chen's original statement here, in 
reaction to my opening statement. And that is, there was an 
Irishman about 100 years ago who had a foreword to a book that 
I read. It said that every person in the United States has two 
flags, the flag of the United States of America and the flag of 
his or her ancestral home. But he added this: Every person in 
the world who loves freedom and liberty has two flags, the flag 
in the nation in which they live and the flag of the United 
States of America.
    I think that our identification with the cause of freedom 
is something that our Founding Fathers wanted and that is 
something that gives America the strength, its ultimate 
strength and power in this world.
    Mr. Chen, you also said something that was very profound. 
You talked about having people, a confusion of what freedom is 
and a confusion of culture versus the culture of freedom. And 
wearing a Mao button, I mean, that was a cultural thing, but 
that really did confuse basic values. You know, what did that 
mean? Kids used to wear Che buttons and they also have these 
Che T-shirts.
    The communist movement over the world, over its history, 
has been one of the bloodiest movements in the history of 
humankind. The Chinese people are still being oppressed by 
those who adhere to that social structure, that concept.
    I do not believe that we would have the same academic 
discussion if we were talking in the 1930s and the Nazi regime 
was offering to set up Nietzsche Institutes in our major 
universities. And I don't believe that we would have people who 
would be moving forward and talking about, ``Well, this would 
help us understand the German culture and the richness of the 
German language.''
    The folks that still control China are still loyal to the 
philosophy that slaughtered so many millions and today is the 
world's worst human rights abuser on this planet. Today Falun 
Gong practitioners, as we speak, there's probably some people 
in the Falun Gong religion who are being thrown into prison, 
who will be murdered, and whose organs will be taken from them 
and sold to Westerners, whose values, as Mr. Chen pointed out, 
are confused.
    When we lose sight of our basic values and that we value 
freedom above all these others, that will be the road that will 
take us down to the destruction of the United States of 
America.
    So, today let us stand firm and let us again celebrate, as 
Mr. Carnahan noted, that we can all disagree and respect each 
other.
    So, thank you all today. This hearing has been, I think, 
very worthwhile. We have got some areas where people will be 
able to discuss this in China and overseas and here at home as 
well with the local press.
    So, I now say that this hearing is--we are not suspending 
it; what is the word I am looking for?--adjourned.
    Thank you very much. God bless.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
